                                       NATIONAL SCIENCE FOUNDATION
                                              4201 WILSON BOULEVARD
                                             ARLINGTON, VIRGINIA 22230




          OFFICE OF
      INSPECTOR GENERAL




    MEMORANDUM




    To:               I960 10009

    From:          V      p   e    c    i     a   l Agent

    Via:          ,                         Special Agent-i

    Re :              Resolution of Case




   indirect cost rate.




    to the Office of Audit, who later determined that, though -had
                                                                              -
   O n December 11, 1995, our office received an anonymous allegatio~claiming that Friday
,B--                     an NSF contractor, was falsifying its employee's timecards, obtaining
   task orders without amending its original contracts, and billing NSF under an exaggerated


    Initially, we interviewed the NSF contracting officer managing              contracts and
    determined that he was aware of (and took into account when making his official decisions)
    C cost overruns and modified time cards.' We forwarded information regarding this case
                                                                       complied with the Fair
    Labor Standards Act and had properly charged its employees wages to its current NSF fixed-
    price service contract, there were still cost overruns under this contractZ and that the
    organization was poorly managed. An OIG draft audit report (including recommendations)
    is being prepared at this time.

     Since the OIG audit adequately addressed issues raised in the allegation, this case is closed.
